APPENDIX A1 -A3
Order of the United States Court of Appeals
for the Sixth Circuit
(July 13. 2020 ; #20-1205)

No. 20-1205
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

SHELBY CLARMONT,
Petitioner-Appellant,
v.
WILLIS CHAPMAN, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Jul 13, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: NALBANDIAN, Circuit Judge.
Shelby Clarmont, a Michigan prisoner proceeding pro se, appeals the district court’s denial

*

of his petition for a writ of habeas corpus, filed pursuant to 28 U.S.C. § 2254. Clarmont’s timely
notice of appeal has been construed as an application for a certificate of appealability (CO A). See
Fed. R. App. P. 22(b)(2).
In June 2018, Clarmont pleaded guilty to conspiracy to commit armed robbery, in violation
of Michigan Compiled Laws § 750.529, in exchange for the dismissal of an armed-robbery count
and a fourth-habitual-offender notice. People v. Clarmont, No. 18-001315-FC (Kent Cty. Cir.
Ct.). The trial court sentenced him to a term of imprisonment of 108 months to 50 years. The
Michigan Court of Appeals denied Clarmont’s delayed application for leave to appeal “for lack of
merit in the grounds presented,” People v. Clarmont, No. 347035 (Mich. Ct. App. Feb. 15, 2019),
and the Michigan Supreme Court denied leave to appeal, People v. Clarmont, 929 N.W.2d 356
(Mich. 2019) (mem.).
In his § 2254 petition, Clarmont raised the same challenges to his sentence that he presented
on direct appeal. He argued that the trial court erred by (1) imposing a sentence based on
incorrectly scored sentencing guidelines and (2) imposing a sentence that represented an upward
departure from the correctly scored guidelines without justification, in violation of People v.

./

No. 20-1205
-2Lockridge, 870 N.W.2d 502 (Mich. 2015), and that resulted in a disproportionate sentence, in
violation of People v. Milbourn, 461 N.W.2d 1 (Mich. 1990). Pursuant to Rule 4 of the Rules
Governing § 2254 Cases, the district court conducted an initial review of the petition. The court
concluded that Clarmont’s challenge to the scoring of the sentencing guidelines was not cognizable
on habeas review and that his arguments concerning proportionality and reasonableness lacked
merit. The court declined to issue a COA.
To obtain a COA, a petitioner must make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2).

To satisfy this standard, a petitioner must

demonstrate “that jurists of reason could disagree, with.the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
To the extent Clarmont argued that the trial court improperly assigned points to offense •

r

variable 14 for his leadership role in the offense, the district court correctly explained that such a .

r

claim is not cognizable on habeas review. See Estelle v. McGuire, 502 U.S. 62, 67-68 (1991). “A

i'

state court’s alleged misinterpretation of state sentencing guidelines and crediting statutes is a

L

matter of state concern only.” Howard v. White, 76 F. App’x 52, 53 (6th Cir. 2003); see also '
Kissner v. Palmer, 826 F.3d 898, 902 (6th Cir. 2016).
For the same reason, any state law challenge to the reasonableness of Clarmont’s sentence
or argument that his sentence is disproportionate under state law is also not cognizable on habeas
review. See Estelle, 502 U.S. at 67-68. Generally, a sentence within statutory limits does not
violate the Eighth Amendment. Austin v. Jackson, 213 F.3d 298, 302 (6th Cir. 2000). The
statutory maximum sentence for armed robbery is life imprisonment. See Mich. Comp. Laws
§ 750.529. Clarmont was sentenced to 180 months to 50 years of imprisonment for his conviction
for conspiracy to commit armed robbery. Reasonable jurists could not debate the district court’s
rejection of this claim.
Finally, reasonable jurists could not debate the district court’s denial of Clarmont’s claim
under Lockridge. Clarmont argued that the district court’s scoring of offense variable 14 based on

No. 20-1205
-3-

the judge-found fact that he was a leader in the conspiracy violated Lockridge. The Supreme Court
has held that any fact that increases the mandatory minimum sentence for a defendant must be
submitted to a jury. Alleynev. United States, 57 OU.S. 99, 103(2013). In Lockridge, the Michigan
Supreme Court held that Michigan’s sentencing guidelines scheme was unconstitutional because
it required impermissible judicial fact-finding in determining a defendant’s mandatory minimum
sentence and, as a remedy, the court rendered the guidelines advisory only. 870 N.W.2d at 506,
524. Because Clarmont was sentenced after the Michigan guidelines were rendered advisory and
because “broad sentencing discretion, informed by judicial factfinding, does not violate the Sixth
Amendment^]” the trial court’s judicial fact-finding did not violate Clarmont’s constitutional
rights. Alleyne, 570 U.S. at 116.
Reasonable jurists could not debate the district court’s denial of Clarmont’s habeas petition.
Accordingly, his application for a CO A is DENIED.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX B1 - BIO
Order and Opinion and Judgment of the U.S. Dist. Ct. - E.D. Mich

/

(December 6. 2019; #3:i9-cv-13226)

4.

Case 3:19-cv-13226-RHC-PTM ECF No. 6 filed 12/06/19

PagelD.85

Page 1 of 9

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

SHELBY CLARMONT,
Petitioner,
Case No. 19-13226

v.
WILLIS CHAPMAN,
Respondent.

OPINION AND ORDER DENYING THE PETITION FOR A WRIT OF HABEAS
CORPUS AND DENYING CERTIFICATE OF APPEALABILITY
I. INTRODUCTION
Michigan prisoner Shelby Clarmont (“Petitioner”) filed this habeas corpus petition
under 28 U.S.C. § 2254. (ECF No. 1.) Petitioner was convicted of conspiracy to
commit armed robbery, Mich. Comp. Laws § 750.529. He raises a single, sentencingrelated claim for habeas corpus relief.
Promptly after the filing of a habeas petition, the court must undertake a
preliminary review of the petition to determine whether “it plainly appears from the face
of the petition and any exhibits annexed to it that the petitioner is not entitled to relief in
the district court.” United States Courts, Rules Governing 2254 Cases, Rule 4 (2010);
see also 28 U.S.C. § 2243. If, after preliminary consideration, the court determines that
the petitioner is not entitled to relief, the court may summarily dismiss the petition.
United States Courts, Rules Governing 2254 Cases, Rule 4 (2010); 28 U.S.C. § 2243;
Allen v. Perini, 424 F.2d 134, 141 (6th Cir. 1970) (District courts have a duty to “screen

Case 3:19-cv-13226-RHC-PTM ECF No. 6 filed 12/06/19

PagelD.86

Page 2 of 9

out” petitions that lack merit on their face.). A dismissal under Rule 4 of the Rules
Governing 2254 Cases includes those petitions which raise legally frivolous claims, as
well as those containing factual allegations which are palpably incredible or false.
Carson v. Burke, 178 F.3d 434, 436-37 (6th Cir. 1999). After undertaking this review,
the court concludes that the habeas petition lacks merit and will be denied.

II. BACKGROUND
Petitioner was charged in Kent County Circuit Court with armed robbery and
conspiracy to commit armed robbery. On June 11, 2018, he pleaded guilty to
conspiracy to commit armed robbery, Mich. Comp. Laws § 750.529, in exchange for the
dismissal of the armed robbery charge and a fourth habitual offender notice.
On July 10, 2018, Petitioner was sentenced to 108 months to 50 years
imprisonment. He filed an application for leave to appeal in the Michigan Court of
Appeals arguing that his sentence was based upon incorrectly scored guidelines,
violated the principle of proportionality, and conflicted with People v. Lockridge, 498
Mich. 358 (Mich. 2015). The Michigan Court of Appeals denied leave to appeal.
People v. Clarmont, No. 347035 (Mich. Ct. App. Feb. 15, 2019). The Michigan
Supreme Court also denied leave to appeal. People v. Clarmont, 504 Mich. 903, 903

(2019).
Petitioner then filed this habeas corpus petition. (ECF No. 1.) He raises the
same sentencing-related claim raised on direct appeal:
The trial court erred in imposing a sentence which was based on
incorrectly scored guidelines and was a departure from applicable
advisory guidelines where the sentence violates the principle of
proportionality as set forth by People v. Milbourn and is unreasonable in
violation of People v. Lockridge[,] thereby entitling the defendant-appellant
to resentencing within the correctly scored range.
2

Case 3:19-cv-13226-RHC-PTM ECF No. 6 filed 12/06/19

PagelD.87

Page 3 of 9

(ECF No. 1, PagelD.3, 6-18.)
III. STANDARD
Title 28 U.S.C. § 2254(d), as amended by the Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”), Pub. L. No. 104-132, 110 Stat. 1214, imposes the
following standard of review for habeas cases:
An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect
to any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim —
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
A decision of a state court is “contrary to” clearly established federal law if the
state court arrives at a conclusion opposite to that reached by the Supreme Court on a
question of law, or if the state court decides a case differently than the Supreme Court
has on a set of materially indistinguishable facts. Williams v. Taylor, 529 U.S. 362, 405406 (2000). An “unreasonable application” occurs when “a state-court decision
unreasonably applies the law of [the Supreme Court] to the facts of a prisoner s case.”
Id. at 409. A federal habeas court may not “issue the writ simply because that court
concludes in its independent judgment that the relevant state-court decision applied
clearly established federal law erroneously or incorrectly.” Id. at 411.
The AEDPA “imposes a highly deferential standard for evaluating state-court
rulings, and demands that state-court decisions be given the benefit of the doubt.
Renico v. Lett, 559 U.S. 766, 773 (2010) (internal quotations omitted). A “state court’s
3

Case 3:19-cv-13226-RHC-PTM ECF No. 6 filed 12/06/19

PagelD.88

Page 4 of 9

determination that a claim lacks merit precludes federal habeas relief so long as
fairminded jurists could disagree on the correctness of the state court’s decision.”
Harrington v. Richter, 562 U.S. 86, 101 (2011) (quotation omitted). A “readiness to
attribute error [to a state court] is inconsistent with the presumption that state courts
know and follow the law.” Woodford v. Viscotti, 537 U.S. 19, 24 (2002).
A state court’s factual determinations are presumed correct on federal habeas
review. 28 U.S.C. § 2254(e)(1). A habeas petitioner may rebut this presumption of
correctness only with clear and convincing evidence. Id.
IV. DISCUSSION
Petitioner’s habeas petition challenges his sentence of 108 months to 50 years.
He argues that the sentence: (i) was based upon incorrectly scored guidelines; (ii)
violates the principle of proportionality set forth in People v. Milbourn, 435 Mich. 630
(1990); and (iii) is unreasonable in violation of Lockridge, 498 Mich. 358.
Petitioner raised these challenges to his sentence in the state court of appeals,
which denied leave to appeal “for lack of merit in the grounds presented.” People v.
Clarmont, No. 347035 (Mich. Ct. App. Feb. 15, 2019). The state supreme court then
denied leave to appeal. People v. Clarmont, 504 Mich. 903, 903 (2019). The state
courts’ summary denial of Petitioner’s claim, despite their brevity, are entitled to
deference under section 2254(d). Where a state court denies a claim on the merits, but
without explanation, “a habeas court must determine what arguments or theories . . .
could have supported, the state court’s decision; and then it must ask whether it is
possible fairminded jurists could disagree that those arguments or theories are
inconsistent with [Supreme Court precedent].” Harrington, 562 U.S. at 102. Therefore

4

Case 3:19-cv-13226-RHC-PTM ECF No. 6 filed 12/06/19

PagelD.89

Page 5 of 9

the relevant question is whether any reasonable argument consistent with established
Supreme Court law could support the state court decision summarily rejecting
Petitioner’s claim.
First, Petitioner argues that he is entitled to resentencing because the sentencing
guidelines were scored incorrectly. A claim that the state trial court incorrectly scored,
calculated, or applied the state legislative sentencing guidelines is not a cognizable
claim for federal habeas review because it is based solely on state law. Cotton v.
Mackie, No. 17-1059, 2017 WL 3686510, at *2 (6th Cir. May 23, 2017) (citing Howard v.
White, 76 F. App’x 52, 53 (6th Cir. 2003)); Paris v. Rivard, 105 F.Supp.3d 701, 724
(E.D. Mich. 2015). “A federal court may not issue the writ on the basis of a perceived
error of state law.” Pulley v. Harris, 465 U.S. 37, 41 (1984). Therefore, Petitioner’s
claim that the trial court incorrectly scored state sentencing guidelines is not cognizable
on federal habeas review. Howard, 76 F. App x at 53 ( A state court s alleged
misinterpretation of state sentencing guidelines and crediting statutes is a matter of
state concern only.”).
Second, Petitioner claims that his sentence is disproportionate. “[T]he Eighth
Amendment does not require strict proportionality between crime and sentence.
Rather, it forbids only extreme sentences that are ‘grossly disproportionate’ to the
crime.” Harmelin v. Michigan, 501 U.S. 957, 1001 (1991) (quoting Solem v. Helm, 463
U.S. 277, 288 (1983)). Courts reviewing Eighth Amendment proportionality must
remain highly deferential to the legislatures in determining the appropriate punishments
for crimes. United States v. Layne, 324 F.3d 464, 473-74 (6th Cir. 2003) (citing
Harmelin, 501 U.S. at 999). “In implementing this ‘narrow proportionality principle,’ the

5

Case 3:19-cv-13226-RHC-PTM ECF No. 6 filed 12/06/19

PagelD.90

Page 6 of 9

Sixth Circuit has recognized that ‘only an extreme disparity between crime and
sentence offends the Eighth Amendment.’” Cowherd v. Million, 260 F. App’x 781,785
(6th Cir. 2008) (quoting United States v. Marks, 209 F.3d 577, 583 (6th Cir. 2000)).
Where a sentence is within the statutory limits, trial courts are accorded “wide discretion
in determining ‘the type and extent of punishment for convicted defendants.’” Austin v.
Jackson, 213 F.3d 298, 300 (6th Cir. 2000) (quoting Williams v. New York, 337 U.S.
241, 245 (1949)). The “actual computation of [a defendant’s] prison term involves a
matter of state law that is not cognizable under 28 U.S.C. § 2254.” Kipen v. Renico, 65
F. App’x 958, 959 (6th Cir. 2003) (citing Estelle v. McGuire, 502 U.S. 62, 68 (1991)).
Petitioner’s sentence is within the statutory limits for his crime, up to life in prison.
Mich. Comp. Laws § 750.529. There is no reason for this court to question or curb the
state’s discretion in fashioning a sentence. Petitioner’s sentence was not grossly
disproportionate or excessive.
Finally, Petitioner argues that the sentencing court violated Lockridge by scoring
offense variable 14 based upon the judge-found fact that Petitioner was a leader in a
multiple-offender situation. In Apprendi v. New Jersey, 530 U.S. 466 (2000), the
Supreme Court held that “[ojther than the fact of a prior conviction, any fact that
increases the penalty for a crime beyond the prescribed statutory maximum must be
submitted to a jury, and proved beyond a reasonable doubt.” Apprendi, 530 U.S. at
490. The Court later applied the rule of Apprendi to a state sentencing-guidelines
scheme, under which the maximum penalty could be increased by judicial fact-finding.
Blakely v. Washington, 542 U.S. 296, 303 (2004). In Alleyne v. United States, 570 U.S.
99 (2013), the Supreme Court extended Apprendi to mandatory minimum sentences,

6

Case 3:19-cv-13226-RHC-PTM ECF No. 6 filed 12/06/19

PagelD.91

Page 7 of 9

ruling that any fact that increases a mandatory minimum sentence is an “element” of the
offense that must be submitted to the jury and proven beyond a reasonable doubt.
Alleyne, 570 U.S. at 111-12.
In People v. Lockridge, 870 N.W.2d 502 (2015), the Michigan Supreme Court
held that, under Alleyne, Michigan’s mandatory sentencing guidelines violated the Sixth
Amendment because the guidelines “require judicial fact-finding beyond facts admitted
by the defendant or found by the jury to score offense variables that mandatorily
increase the floor of the guidelines minimum sentence range.” Lockridge, 870 N.W.2d
at 506. The court’s remedy was to make the guidelines advisory only. Id. at 520-21.
See also Robinson v. Woods, 901 F.3d 710, 716-17 (6th Cir. 2018) (holding that Alleyne
clearly established that Michigan's pre-Lockridge mandatory minimum sentencing
guidelines scheme violated the Sixth Amendment).
Petitioner was sentenced well after Lockridge was decided. As a result,
Michigan’s sentencing guidelines were advisory only. Purely advisory applications of
the sentencing guidelines do not violate the Sixth Amendment. United States v. Booker,
543 U.S. 220, 233 (2005) (“If the Guidelines as currently written could be read as
merely advisory provisions that recommended, rather than required, the selection of
particular sentences in response to differing sets of facts, their use would not implicate
the Sixth Amendment.”); see also United States v. Cook, 453 F.3d 775, 777 (6th Cir.
2006) (holding that defendant’s sentence based on facts other than those found by the
jury or admitted by defendant did not violate the Sixth Amendment because he was
sentenced under advisory, rather than mandatory, sentencing guidelines). Petitioner

7

Case 3:19-cv-13226-RHC-PTM ECF No. 6 filed 12/06/19

PagelD.92

Page 8 of 9

was sentenced when the sentencing guidelines were advisory only and no Sixth
Amendment violation occurred.
For these reasons, Petitioner has failed to show that the state appellate court s
determinations regarding the constitutionality of his sentence are contrary to, or an
unreasonable application of, clearly established federal law.
V. CERTIFICATE OF APPEALABILITY
Before Petitioner may appeal the court’s decision, a certificate of appealability
must issue. 28 U.S.C. § 2253(c)(1)(a); Fed. R. App. P. 22(b). A certificate of
appealability may issue “only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). A petitioner must show “that
reasonable jurists could debate whether (or, for that matter, agree that) the petition
should have been resolved in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further. ” Slack v. McDaniel, 529 U.S.
473

484 (2000) (citation omitted). In this case, reasonable jurists would not debate the

conclusion that the petition fails to state a claim upon which habeas corpus relief should
be granted. Therefore, the court will deny a certificate of appealability.
VI. CONCLUSION
Petitioner does not present claims upon which relief can be granted. For the
reasons set forth above, the court will decline to issue a writ of habeas corpus or a
certificate of appealability. Accordingly,

8

Case 3:19-cv-13226-RHC-PTM ECF No. 6 filed 12/06/19

PagelD.93

Page 9 of 9

1
d

IT IS ORDERED that the petition for a writ of habeas corpus and a certificate of
appealability are DENIED.
S/Robert H. Cleland
ROBERT H. CLELAND
UNITED STATES DISTRICT JUDGE
Dated: December 6, 2019
I hereby certify that a copy of the foregoing document was mailed to counsel of record
on this date, December 6, 2019, by electronic and/or ordinary mail.
S/I isa Waaner
Case Manager and Deputy Clerk
(810) 292-6522
S:\Cleland\Cleland\JUDGE'S DESK\C2 0RDERS\19-13226.CLARMONT.2254.MBC.RMK.docx

9

Case 3:19-cv-13226-RHC-PTM ECF No. 7 filed 12/06/19

PagelD.94

Page 1 of 1

A
*

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

SHELBY CLARMONT, #299801,
Petitioner,
Case No. 19-13226

v.

WILLIS CHAPMAN
Respondent.

JUDGMENT
IT IS ORDERED AND ADJUDGED that pursuant to this court’s Opinion and
Order dated December 6. 2019. this cause of action is DISMISSED.
Dated at Detroit, Michigan this 6th day of December. 2019.

DAVID J. WEAVER
CLERK OF THE COURT
BY:

S/Lisa Wagner
Lisa Wagner, Case Manager and
Deputy Clerk to
Judge Robert H. Cleland
(810) 292-6522

«
1

4

APPENDIX Cl
Order of the Michigan Supreme Court
(July 2, 2019, #159363)

Page 1 of 4

People v. Claxmont, 2019 Mich. LEXIS 1163
-y
^menJpe°^v.<flgmglyqi^clC^ijonX ^

| Search Document Q

-4.......

5..//rrL/zz/irzz.....

t=~=!

1

•••'•'" ...1

v"' •

,rTTT~^’ i ^

-

1

.......

© People v. Clarmont, 2019 Mich. LEXIS 1163
Copy Citation
Supreme Court of Michigan
July 2, 2019, Decided

SC: 159363
Reporter

2019 Mich. LEXIS 1163 * | 504 Mich. 903 | 929 N.W.2d 356 | 2019 WL

J.

2870938
PEOPLE OF THE STATE OF MICHIGAN, Plaintiff-Appellee, v SHELBYJEAN SENA
CLARMONT, Defendant-Appellant.
Subsequent History: Writ of habeas corpus denied, Certificate of
appealability denied Clarmont v. Chapman. 2019 U.S. Dist. LEXIS 211079
( E.D. Mich.. Dec. 6. 2019!
Prior History: [*1] COA: 347035. Kent CC: 18-001315-FC.
Judges: Bridget M. McCormacks. Chief Justice. David F. Viviano

Chief

Justice Pro Tern. Stephen J. Markman^-. Brian K. Zahra -y.
Richard H. Bernstein ▼, Elizabeth T. Clement -w, Megan K. Cavanaqh ▼,
Justices.

Opinion

Order
On order of the Court, the application for leave to appeal the February 15,
2019 order of the Court of Appeals is considered, and it is DENIED, because we
are not persuaded that the question presented should be reviewed by this
Court.

https://advance.lexis.com/search/?pdmfid=1000516&crid=047cf066-9d4c-417e-9af2-08a0...

9/12/2020

4

*
W

No. 20IN THE
SUPREME COURT OF THE UNITED STATES

IN RE:

SHELBY CLARMONT,
Petitioner,
V
WILLIS CHAPMAN, Warden
Respondent.

NOTARIZED STATEMENT OF DEPOSITING

Shelby Clarmont, first duly sworn, states he is an inmate confined at the Macomb
Correctional Facility, at 34625 26 Mile Road, Lenox Township, Michigan 48048, and on this
1S day of September 2020, he turned over to the Michigan Department of Corrections
Officials to deposit an Original; MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS w/AFFIDAVIT IN SUPPORT; PETITION FOR WRIT OF CERTIORARI
w/APPENDIX; PROOF OF SERVICE, to file with the Clerk of Court, United States Supreme
Court, Notarized Statement Of Depositing; in the Macomb Correctional Facility Internal Mail
System with first class postage fully prepaid.

Subscribed and sworn to before me
This

ff.day of September 2020

Notary Public
N0RBERT J. FR0NCZAK
NOTARY PUBLIC, STATE OF Ml
COUNTY OF MACOMB
.^.SOMMISSIONEXP|RESSep9,2021 y
ACTING IN COUNTY OF

Shelby ClMiont, #299801
Pro Se

•V

% :

